No. - - - - -- -- -

IN THE SUPREME COURT
OF THE UNITED STATES

IRVIN MORENO,
Petitioner,
v.
DEWAYNE HENDRIX, Warden,
FCI Sheridan,
Respondent.
MOTION FOR LEAVE
TO PROCEED IN FORMA PA UP ERIS
The petitioner, Irvin Moreno, requests leave to file the attached petition for writ of
certiorari to the United States Court of Appeals for the Ninth Circuit without prepayment
of costs and to proceed informapauperis pursuant to Rule 39.1 of this Court and 18 U.S.C.
ยง 3006A( d)(7). The petitioner was represented by counsel appointed under the Criminal
Justice Act in the District of Oregon and on appeal in the Ninth Circuit Court of Appeals,
and therefore no affidavit is required.
Respectfully submitted this 28th day of May, 2021.

Stephen . Sady
Attorney for Petitioner

